           U.S. Department of
                                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                         Date:   June 27, 2011
           Single Audit on the Dallas Area Rapid Transit
           Report No. QC-2011-134
                                                                                      Reply To    JA-20
  From:    Earl C. Hedges                                                              Attn Of:
           Program Director for Single Audit

    To:    Regional Administrator, FTA, Region VI


           The U.S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the Dallas Area Rapid Transit (DART). This report presents the
           results of our Quality Control Review (QCR) of a single audit performed by
           Deloitte & Touche, LLP on DART for the fiscal year ending September 30, 2010.
           During this period, DART expended approximately $198 million from DOT grant
           programs, as shown on the attached Schedule of Expenditures of Federal Awards.

           The Office of Management and Budget's (OMB) Circular A-133, “Audits of
           States, Local Governments, and Non-Profit Organizations,” requires the auditor to
           render an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           Deloitte & Touche rendered an unqualified (clean) opinion on DART's financial
           statements, and did not question any costs concerning DOT programs. Deloitte &
           Touche also rendered an unqualified opinion on DOT's major program, the Federal
           Transit Cluster. 1

           SCOPE

           The purpose of our QCR was to determine: (1) whether the work complied with
           generally accepted government auditing standards, the Single Audit Act of 1984,
           as amended (the Act), and OMB Circular A-133, and (2) the extent to which we
           could rely on the auditor’s work.




           1
               The single audit report issued by Deloitte & Touche, LLP is available upon request. Requests should be
               sent to singleauditrequest@oig.dot.gov.
                                                                                 2

RESULTS

Based on our QCR, we determined that Deloitte & Touche's work was Acceptable,
and therefore met the requirements of generally accepted government auditing
standards, the Act, and OMB Circular A-133. We found nothing to indicate that
Deloitte & Touche's opinion on DART's financial statements or reports on
DART's internal controls and compliance were inappropriate or unreliable.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #

Attachment

cc: Audit Liaison, FTA, TBP-11
    Audit Liaison, OST, M-1
    Vice President, Finance, Dallas Area Rapid Transit
